<html>
<title> - UPDATE ON LOW-LEVEL RADIOACTIVE WASTE DISPOSAL ISSUES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


          UPDATE ON LOW-LEVEL RADIOACTIVE WASTE DISPOSAL ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

                           Serial No. 114-96
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               _____________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
99-436 PDF                WASHINGTON : 2016                    
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  





                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 7_____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8

                               Witnesses

Mark Whitney, Principal Deputy Assistant Secretary for 
  Environmental Management, Department of Energy.................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................    69
Michael F. Weber, Deputy Executive Director for Materials, Waste, 
  Research, State, Tribal, and Compliance Programs, Nuclear 
  Regulatory Commission..........................................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................    76
Jennifer Opila, Director, Colorado, Organization of Agreement 
  States.........................................................    38
    Prepared statement...........................................    40
Leigh Ing, Executive Director, Texas Low-Level Radioactive Waste 
  Disposal Compact Commission....................................    42
    Prepared statement...........................................    44
    Map, ``Low-Level Waste Compacts''............................    48
    Answers to submitted questions...............................    82
Chuck Smith, Jr., Council Member, Aiken County, South Carolina, 
  and Chairman, Energy Communities Alliance......................    49
    Prepared statement...........................................    52
    Answers to submitted questions...............................    85

 
         UPDATE ON LOW-LEVEL RADIOACTIVE WASTE DISPOSAL ISSUES

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:20 a.m., in 
room 2322 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, 
Whitfield, Pitts, Murphy, Latta, McKinley, Johnson, Bucshon, 
Flores, Upton (ex officio), Tonko, Schrader, Green, McNerney, 
and Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Will Batson, 
Legislative Clerk; David Bell, Staff Assistant; Jerry Couri, 
Senior Policy Advisor; A.T. Johnston, Senior Policy Advisor; 
Dave McCarthy, Chief Counsel, Environment and the Economy; 
Chris Sarley, Policy Coordinator, Environment and the Economy; 
Dan Schneider, Press Secretary; Andy Zach, Counsel, Environment 
and the Economy; Christine Brennan, Democratic Press Secretary; 
Jeff Carroll, Democratic Staff Director; Meredith Jones, 
Democratic Director of Communications, Member Services and 
Outreach; Rick Kessler, Democratic Senior Advisor and Staff 
Director, Energy and Environment; Deborah Letter, Democratic 
Staff Assistant; and Alexander Ratner, Democratic Policy 
Analyst.
    Mr. Shimkus. The hearing will come to order, and I will 
recognize myself for 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today's hearing on the disposal of low-level radioactive 
waste continues our detailed examination of what it takes to 
manage, store, and dispose of nuclear material.
    Nuclear science and technologies take advantage of 
radiation and nuclear properties of the atom to perform many 
useful activities such as improving food safety, protecting our 
homeland, and providing for precise industrial production.
     However, these invaluable technologies generate low-level 
radioactive waste which must be carefully managed and 
transported for disposal, even though it has a lower level of 
radioactivity and a shorter decay time than spent fuel from a 
nuclear power plant.
    Additionally, as our fleet of nuclear power plants ages, 
more reactors must go through the decommissioning process. For 
example, the decommissioning plan for the Vermont Yankee plant 
will outlast the license for the West Texas facility where the 
low-level waste is currently planned to be sent.
    Over 35 years ago, Congress passed the Low-Level 
Radioactive Waste Policy Act of 1980 to establish a system by 
which States would form regional compacts to have a consent-
based siting process for low-level waste disposal facilities.
    In 1985, after limited success in implementing the act, 
Congress had to amend the law to provide greater authority to 
host States. Ten compacts are in place today, 6 of which do not 
have an active disposal site, including the Central Midwest 
Compact, which is comprised of Illinois and Kentucky.
    Eight States and the District of Columbia are not 
affiliated with a compact. Prior to 2008, the 6 compacts 
without a disposal site and the unaffiliated States had access 
to the Barnwell, South Carolina facility for Class B and C 
waste.
    However, starting in 2008, the South Carolina legislature 
made a political decision and opted to allow access only to 
members of the Atlantic Compact. As we will hear today, that 
left a significant portion of the country without a disposal 
pathway for Class B and C waste until 2012, when the Texas 
Compact opened for business, the only facility to open as a 
result of the Low-Level Waste Policy Act.
    While Texas is currently filling a national need, political 
considerations could once again shift and force States to store 
material onsite until a new facility is located, licensed, and 
accepting waste.
    It is important for Congress to provide oversight of low-
level waste policy to make sure States have uninterrupted 
access to a disposal site. While compacts must address 
commercially generated low-level waste, the Department of 
Energy must manage the low-level waste generated by its 
research activities and the nuclear enterprise. DOE works with 
the communities around the Nation to assure safe management and 
permanent disposal.
    Today we will hear how DOE can improve its engagement to 
assure those communities are heard and a part of the process. 
Additionally, the Federal Government is responsible for 
disposing of greater-than-Class C waste, or GTCC, which is more 
hazardous than other classes of low-level waste.
    The Nuclear Regulatory Commission requires that GTCC waste 
be disposed of in a geologic repository. In 2005, Congress 
directed DOE to examine disposal options for GTCC waste and to 
make recommendations to Congress.
    Congress has not yet received any GTCC recommendations. 
However, DOE walked away from the most practical disposal 
pathway for GTCC waste when President Obama quit work on the 
Yucca Mountain project.
    The longer DOE puts off its recommendation, the longer this 
material must remain onsite in temporary storage instead of in 
a permanent disposal repository.
    The sole geologic repository that has been in operation for 
the Federal Government to dispose of radioactive waste is the 
Waste Isolation Pilot Project, or WIPP.
    In 2014, WIPP experienced an incident that closed the 
facility. I am interested in hearing from DOE how this incident 
has had repercussions in the Federal Government's waste 
management strategy.
    Today's hearing will inform this committee's efforts to 
advance a comprehensive policy to manage spent nuclear fuel and 
high-level waste.
    Let us look closely at the experience of siting low-level 
waste repositories and how the Federal Government engages 
States and local communities in the decision making process.
    The Department of Energy carefully and constructively 
engaged with the State of Nevada to provide for a mixed-level 
waste disposal site at the Nevada National Security Site 
adjacent to Yucca Mountain.
    We should consider how these conversations between the 
Federal Government and Nevada can continue to advance the 
development of a deep, geologic repository for used fuel.
    Thank you again to our witnesses, and I look forward to 
your testimony this morning.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Today's hearing on the disposal of low-level radioactive 
waste continues our detailed examination of what it takes to 
manage, store, and dispose of nuclear material.
    Nuclear science and technologies take advantage of 
radiation and nuclear properties of the atom to perform many 
useful activities, such as improving food safety, protecting 
our homeland, and providing for precise industrial production. 
However, these invaluable technologies generate low-level 
radioactive waste, which must be carefully managed and 
transported for disposal, even though it has a lower level of 
radioactivity and shorter decay time than spent fuel from a 
nuclear power plant.
    Additionally, as our fleet of nuclear power plants ages, 
more reactors must go through the decommissioning process. For 
example, the decommissioning plan for the Vermont Yankee plant 
will outlast the license for the West Texas facility where the 
low-level waste is currently planned to be sent.
    Over 35 years ago, Congress passed the Low-Level 
Radioactive Waste Policy Act of 1980 to establish a system by 
which States would form regional compacts to have a consent-
based siting process for lowlevel waste disposal facilities. In 
1985, after limited success in implementing the Act, Congress 
had to amend the law to provide greater authority to host 
States.
    Ten compacts are in place today, six of which do not have 
an active disposal site, including the Central Midwest Compact 
which is comprised of Illinois and Kentucky. Eight States and 
the District of Columbia are not affiliated with a compact.
    Prior to 2008, the six compacts without a disposal site and 
the unaffiliated States had access to the Barnwell, South 
Carolina, facility for Class B and C waste. However, starting 
in 2008, the South Carolina Legislature made a political 
decision and opted to allow access only to members of the 
Atlantic Compact. As we will hear today, that left a 
significant portion of the country without a disposal pathway 
for Class B and C waste until 2012, when the Texas Compact 
opened for business, the only facility to open as a result of 
the Low-Level Waste Policy Act.
    While Texas is currently filling a national need, political 
considerations could once again shift, and force States to 
store material onsite until a new facility is located, 
licensed, and accepting waste. It is important for Congress to 
provide oversight of low-level waste policy to make sure States 
have uninterrupted access to a disposal site.
    While compacts must address commercially generated low-
level waste, the Department of Energy must manage the low-level 
waste generated by its research activities and the nuclear 
enterprise. DOE works with the communities around the Nation to 
assure safe management and permanent disposal. Today we will 
hear how DOE can improve its engagement to assure those 
communities are heard and a part of the process.
    Additionally, the Federal Government is responsible to for 
disposing of greater-than-Class C waste, or GTCC, which is more 
hazardous than other classes of low-level waste. The Nuclear 
Regulatory Commission requires that GTCC waste be disposed of 
in a geologic repository.
    In 2005, Congress directed DOE to examine disposal options 
for GTCC waste and make recommendations to Congress. Congress 
has not yet received any GTCC recommendation. However, DOE 
walked away from the most practical disposal pathway for GTCC 
waste when President Obama quit work on the Yucca Mountain 
project.
    The longer DOE puts off its recommendation, the longer this 
material must remain onsite in temporary storage, instead of in 
permanent disposal.
    The sole geologic repository that has been in operation for 
the Federal Government to dispose of radioactive waste is the 
Waste Isolation Pilot Project or WIPP. In 2014, WIPP 
experienced an incident that closed the facility. I am 
interested in hearing from DOE how this incident has had 
repercussions in the Federal Government's waste management 
strategy.
    Today's hearing will inform this committee's efforts to 
advance a comprehensive policy to manage spent nuclear fuel and 
high-level waste. Let's look closely at the experience of 
siting low-level waste repositories and how the Federal 
Government engages State and local communities in the decision 
making process.
    The Department of Energy carefully and constructively 
engaged with the State of Nevada to provide for a mixed low-
level waste disposal site at the Nevada National Security Site, 
adjacent to Yucca Mountain. We should consider how these 
conversations between the Federal Government and Nevada can 
continue to advance the development of a deep, geologic 
repository for used fuel.

    Mr. Shimkus. I now recognize the ranking member, Mr. Tonko, 
for his opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses and good morning.
    We are here this morning to hear about the status of 
facilities and programs to dispose of low-level radioactive 
waste. Low-level radioactive waste includes a wide variety of 
materials that have become radioactive or that were 
contaminated by exposure to radioactive substances.
    It includes cleaning items, protective equipment and 
medical waste, materials used in research and equipment and 
tools, among various other items.
    The amounts of waste generated vary considerably from year 
to year but the volumes are significant. These materials are 
disposed of at three commercially operated sites here in the 
United States. The sites are regulated by the Nuclear 
Regulatory Commission.
    States are responsible for the waste generated within their 
borders. However, groups of States have entered into compacts 
or other agreements that allow some to dispose of waste in one 
of the three existing facilities.
    These are not the sites that can or will accept spent fuel 
from nuclear reactors. We have benefitted from our research and 
applications in nuclear medicine and nuclear power but these 
have come at a high cost.
    Projections for many of the DOE-managed sites are that it 
will be decades before cleanup and decontamination are 
completed at costs in the billions of dollars.
    We are fortunate to have Mark Whitney of the Department of 
Energy and Michael Weber of the Nuclear Regulatory Commission 
here with us this morning on the first panel. Again, welcome.
    Thank you both for being here this morning to testify on 
the important work that you are doing to ensure these materials 
are handled and disposed of properly. We also have an excellent 
group of witnesses on our second panel.
    On our second panel, we will hear from Mr. Chuck Smith, the 
chair of the Energy Communities Alliance. Mr. Smith represents 
the communities that live nearby contaminated sites and deal 
with the issues of nuclear waste cleanup and disposal on a 
daily basis.
    Mr. Smith offers some interesting ideas for speeding 
cleanups and reducing cleanup costs. I agree that we should be 
looking at all options for nuclear waste disposal in an effort 
to find the safest and most cost effective ways to move 
forward.
    We must recognize and deal with both the technical and 
political challenges of disposing of all classes of nuclear 
waste.
    In addition to Mr. Smith, we will have the benefit of 
testimony from Ms. Leigh Ing and Ms. Jennifer Opila to provide 
perspectives of different State organizations responsible for 
these issues.
    More than 60 years after beginning and expanding our use of 
nuclear materials, nuclear waste disposal remains a difficult 
and expensive problem.
    The large volumes of waste generated, the high cost of 
treatment and disposal and the limited locations willing to 
host disposal facilities for any type of waste generated 
considerable or generate considerable an ongoing public concern 
and resistance.
    Until we find better solutions for this problem, further 
development of nuclear power will be seriously constrained. So 
I thank you all for your participation this morning at the 
hearing. I look forward to your testimony and further 
discussion of these important issues.
    With that, I yield back, Mr. Chair.
    Mr. Shimkus. Ranking member yields back his time.
    Chair now recognizes the chairman of the full committee, 
Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Nuclear technology is deployed throughout our economy in a 
variety of different ways. For example, radioactive monitors 
accurately map subsurface geology to assist the U.S. efforts to 
capitalize on the oil and gas renaissance.
    Nuclear medicine provides medical treatments that save 
thousands and thousands of lives and this technology will only 
grow and advance with the research and innovation that the 21st 
Century Cures Act will spawn.
    However, all of these activities generate low-level 
radioactive waste, which must be properly managed, transported 
and disposed. Congress provided this responsibility to the 
States, which were to form interstate compacts to collaborate 
to site a disposal facility.
    However, not all States joined compacts, including my home 
State of Michigan. There is currently only one available 
disposal site, located in Texas, for noncompact States.
    I am pleased to welcome the Texas Low-Level Radioactive 
Waste Disposal Compact Commission this morning to understand 
how this compact is operating and to learn how they intend to 
dispose of the Nation's low-level waste.
    In the years since Congress passed the Low-Level 
Radioactive Waste Policy Act of 1980, we have struggled to 
develop the system that Congress envisioned. Today, Canada, our 
neighbor in the Great Lakes region, is facing a similar 
challenge.
    Our experience addressing permanent disposal of nuclear 
material may offer some lessons learned from Canada. I am 
hopeful that today's hearing will serve to inform this 
committee about ongoing challenges and opportunities in 
managing nuclear waste.
    I also want to briefly comment on the markup that we are 
going to have immediately following the hearing. At last week's 
hearing, members discussed moving S. 611 without amendment so 
that we can put it on a fast track to enactment.
    By unanimously passing S. 611, the Senate has given us a 
rare opportunity. We can do our part to help this 
reauthorization become law if we can all agree to approve the 
bill exactly as it passed the Senate so that if the House 
passes it, it will go directly to the President for signature.
    Many smaller and rural communities across the U.S. 
including many in Michigan face significant challenges in 
replacing, maintaining and upgrading their aging water 
infrastructure. It is in every community.
    It is also clear that many of our constituents responsible 
for managing small rural drinking systems do support S. 611 as 
well.
    Many of us have discussed various ideas to improve the Safe 
Drinking Water Act, from addressing the State Revolving Fund to 
developing statutory flexibility for small systems to meet the 
growing technical challenges of complying with changing 
drinking water standards.
    The bill before us today would help communities across 
Michigan and across the country manage increased costs and the 
burden of meeting complex regulatory requirements under the 
Safe Water Drinking Act.
    So we want to make law in this area. Our best chance to do 
it is to take this bill, pass it without any hitches. I urge 
all members to support it.
    I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Nuclear technology is deployed throughout our economy in a 
variety of different ways. For example, radioactive monitors 
accurately map subsurface geology to assist the United States' 
efforts to capitalize on the oil and gas renaissance. Nuclear 
medicine provides medical treatments that save thousands of 
lives. And this technology will only grow and advance with the 
research and innovation that the 21st Century Cures Act will 
spawn.
    However, all of these activities generate low-level 
radioactive waste, which must be properly managed, transported, 
and disposed. Congress provided this responsibility to the 
States, which were to form interstate compacts to collaborate 
to site a disposal facility. However, not all States joined 
compacts, including my home State of Michigan.
    There is currently only one available disposal site, 
located in Texas, for noncompact States. I am pleased to 
welcome the Texas Low-Level Radioactive Waste Disposal Compact 
Commission this morning to understand how the Compact is 
operating and to learn how they intend to dispose of the 
Nation's low-level waste.
    In the years since Congress passed the Low-Level 
Radioactive Waste Policy Act of 1980, we have struggled to 
develop the system that Congress envisioned. Today, Canada, our 
neighbor in the Great Lakes region, is facing a similar 
challenge. Our experience addressing permanent disposal of 
nuclear material may offer some lessons learned for Canada.
    I'm hopeful that today's hearing will serve to inform this 
committee about ongoing challenges and opportunities in 
managing nuclear waste.
    I also would like to briefly comment on the markup that 
we'll have immediately following this hearing. At last week's 
hearing members discussed moving S. 611 without amendment so 
that we can put it on a fast track to enactment. By unanimously 
passing S. 611, the Senate has given us a rare opportunity. We 
can do our part to help this reauthorization become law if we 
can all agree to approve the bill exactly as it passed the 
Senate so that, if the House passes it, it will go directly to 
the President for his signature.
    Many smaller and rural communities across the United 
States, including many in my home State of Michigan, face 
significant challenges in replacing, maintaining, and upgrading 
their aging water infrastructure. It's also clear that many of 
our constituents responsible for managing small rural drinking 
water systems support S. 611 too.
    Many of us have discussed various ideas to improve the Safe 
Drinking Water Act, from addressing the State Revolving Fund, 
to developing statutory flexibility for small systems to meet 
the growing technical challenges of complying with changing 
drinking water standards. The bill before us today would help 
communities in Southwest Michigan and across the country manage 
increased costs and the burden of meeting complex regulatory 
requirements under the Safe Water Drinking Act.
    We want to make law in this area. Our best chance to do 
that is to take up the Senate-passed bill and pass it on to the 
President's desk where it will become law with no hitches, and 
all of our small and rural communities will be better for it. I 
urge all Members to vote yes to approve S. 611 and to oppose 
any amendments.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you.
    Unfortunately, there is a great deal of low-level nuclear 
waste generated in this country from a variety of source and 
those sources include not just activities at commercial nuclear 
reactors but also manufacturing plants, academic institutions 
and medical facilities and, of course, it also comes from 
Government activities including the cleanup of Department of 
Energy sites.
    So having a number of safe, secure and environmentally 
sound options for disposal of low-level radioactive waste is 
important to a lot of stakeholders.
    But it is also critically important for our local 
communities that once hosted facilities central to our national 
security yet continue to live with low-level and other 
radioactive waste even after those facilities close their 
doors.
    The Low-Level Radioactive Waste Policy Amendment Acts of 
1985 gave each State responsibility for disposing of low-level 
radioactive waste generated within its borders.
    In doing so, it encouraged States to enter into interstate 
compacts so that a group of States could agree to develop a 
common site to dispose of their waste and to date 10 regional 
compacts have been formed while 8 States, Puerto Rico, and the 
District of Columbia remain unaffiliated.
    Unfortunately, however, the track record of these sites 
hasn't been entirely successful. Environmental justice concerns 
halted a number of early efforts to site facilities in poor 
communities that did not desire to have them.
    And so while numerous compacts were formed, only 4 are home 
to disposal facilities and as a result those facilities have 
become the de facto sites now accepting waste from a variety of 
other compacts in individual States.
    And while that solution is currently working, I believe we 
need a more rational predictable policy going forward and we 
need to do that in a way that addresses the concerns of the 
communities that are home to radioactive waste generated as a 
result of activities that benefit us all.
    Mr. Chairman, I am very interested to learn more about 
DOE's efforts to clean up and dispose of waste generated from 
its activities, particularly with regard to disposal of the 
most dangerous low-level radioactive waste, the greater-than-
Class C waste.
    I understand that the Department is working to complete a 
final evaluation of the potential environmental impacts 
associated with the proposed development of a disposal facility 
or facilities for greater-than-Class C and other similar waste.
    I am also interested in hearing about the Nuclear 
Regulatory Commission's recent activities in this area. It is 
my understanding that NRC is currently in the process of 
updating its regulations regarding the disposal of low-level 
waste to a more risk-based system that will better align 
disposal requirements with current health and safety standards.
    I also would like to learn more about the July 2015 NRC 
staff paper recommending that the commission allow the State of 
Texas to license the disposal of greater-than-Class C waste.
    While I take no position on the Texas issue, I do think 
that the NRC process is important. If the commissioners are 
confident that Texas can license and manage a program that 
includes the most dangerous low-level waste then this opens up 
a real potential for benefit to communities around the country 
and it would also serve as a step on the road to considering 
the siting of facilities to dispose of material that pose risks 
greater than low-level waste.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Shimkus and Ranking Member Tonko, for 
holding today's hearing on low-level nuclear waste issues.
    Unfortunately, there is a great deal of low-level nuclear 
waste generated in this country from a variety of sources. 
These sources include--not just activities at commercial 
nuclear reactors--but also manufacturing plants, academic 
institutions and medical facilities. And, of course, it also 
comes from Government activities including the cleanup of 
Department of Energy sites.
    So having a number of safe, secure, and environmentally 
sound options for disposing of low-level radioactive waste is 
important to a lot of stakeholders. But it is also critically 
important for our local communities that once hosted facilities 
central to our national security, yet continue to live with 
low-level and other radioactive wastes, even after those 
facilities closed their doors.
    The Low-Level Radioactive Waste Policy Amendments Act of 
1985 gave each State responsibility for disposing of low-level 
radioactive waste generated within its borders. In doing so, it 
encouraged States to enter into interstate compacts so that a 
group of States could agree to develop a common site to dispose 
of their waste. To date, 10 regional compacts have been formed, 
while 8 States, Puerto Rico, and the District of Columbia 
remain unaffiliated.
    Unfortunately, however, the track record of these sites 
hasn't been entirely successful. Environmental justice concerns 
halted a number of early efforts to site facilities in poor 
communities that did not desire to have them. So, while 
numerous compacts were formed, only four are home to disposal 
facilities. As a result, those facilities have become the de 
facto sites, now accepting waste from a variety of other 
compacts and individual States.
    While that solution is currently working I believe we need 
a more rational, predictable policy going forward. And, we need 
to do that in a way that addresses the concerns of the 
communities that are home to radioactive waste generated as a 
result of activities that benefited all of us.
    I am very interested to learn more about DOE's efforts to 
clean up and dispose of waste generated from its activities, 
particularly with regard to disposal of the most dangerous low-
level radioactive waste, greater-than-Class C wastes. I 
understand that the Department is working to complete a final 
evaluation of the potential environmental impacts associated 
with the proposed development of a disposal facility or 
facilities for greater-than-class C and similar wastes.
    I'm also interested in hearing about the Nuclear Regulatory 
Commission's (NRC) recent activities in this area. It's my 
understanding that NRC is currently in the process of updating 
its regulations regarding the disposal of low-level waste to a 
more risk-based system that will better align disposal 
requirements with current health and safety standards.
    I also would like to learn more about the July 2015 NRC 
staff paper recommending that the Commission allow the State of 
Texas to license the disposal of greater-than-Class C waste.
    While I take no position on the Texas issue, I do think 
that the NRC process is important. If the Commissioners are 
confident that Texas can license and manage a program that 
includes the most dangerous low-level waste, then this opens up 
a real potential for benefit to communities around the country. 
It also would serve as a step on the road to considering the 
siting of facilities to dispose of materials that pose risks 
greater than low-level waste.
    I want to thank our witnesses and I look forward to 
discussing these matters with them. I yield back.

    Mr. Pallone. I would like to yield the balance of my time, 
Mr. Chairman, to Mr. McNerney.
    Mr. McNerney. I thank the ranking member, and I thank the 
chairman for holding this important hearing.
    Low-level nuclear waste may not be as dangerous as high-
level nuclear waste but it is still a risk and people are 
justifiably concerned about that risk.
    There are engineering solutions that would allow us to find 
disposal sites, to transport nuclear materials for those 
disposal sites and there is an urgency to this problem.
    But the real challenge is the politics. In order to get 
this accepted we have to be transparent. We have to let the 
public know what the risks are and what benefits there might be 
to local communities.
    We need to let them buy into it because if we try to 
enforce nuclear waste on any communities it is not going to 
work. So I urge that we develop a system that is very 
transparent, that is very public friendly and I think if we do 
that we will be able to find a solution.
    So with that, I will yield back.
    Mr. Shimkus. Gentleman yields back his time.
    So we want to welcome our witnesses today and first, I 
would like to recognize for his opening statement Mr. Mark 
Whitney, Principal Deputy Assistant Secretary for Environmental 
Management with the Department of Energy.
    Your full statement is in the record, and you have 5 
minutes. Welcome.

    STATEMENTS OF MARK WHITNEY, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY, 
AND MICHAEL F. WEBER, DEPUTY EXECUTIVE DIRECTOR FOR MATERIALS, 
   WASTE, RESEARCH, STATE, TRIBAL, AND COMPLIANCE PROGRAMS, 
                 NUCLEAR REGULATORY COMMISSION

                   STATEMENT OF MARK WHITNEY

    Mr. Whitney. Thank you, sir.
    Good morning, Chairman Shimkus, Ranking Member Tonko and 
members of the subcommittee. I do appreciate the opportunity to 
be here with you today to discuss the Office of Environmental 
Management's activities to safely and properly dispose of DOE-
generated low-level radioactive waste and our ongoing planning 
efforts for disposal of greater-than-Class C low-level 
radioactive waste.
    First, let me state that safe performance of our work is 
our overarching priority. The Department's first responsibility 
is to protect our workers, the public and environment during 
our cleanup mission.
    Safety first is the clear expectation for every activity 
that we undertake in implementing that mission. The Department 
of Energy is the largest generator of low-level radioactive 
waste by volume in the Nation with most waste derived from the 
Office of Environmental Management's cleanup efforts.
    Since 2005, the Department has safely disposed of over 330 
million cubic feet of low-level radioactive waste. The 
overwhelming majority of the Department's low-level radioactive 
waste is disposed of on the site where generated.
    In fiscal year 2014, 23 million cubic feet of mixed and 
low-level radioactive waste were disposed of at the site where 
generated.
    The Department sites that have the capability to dispose of 
all or a portion of their onsite-generated waste include the 
Hanford site, the Idaho site, the Los Alamos National 
Laboratory, which has limited capability, the Nevada National 
Security Site, Savannah River Site and the Oak Ridge 
Reservation.
    In fiscal year 2015, a decision was made to construct a 
future new disposal facility for decommissioning and 
remediation waste at the Portsmouth Gaseous Diffusion Plant and 
similarly the Department is continuing to evaluate options for 
similar waste disposal onsite at the Paducah Gaseous Diffusion 
Plant.
    The Department of Energy sites without an onsite disposal 
facility mixed and low-level radioactive waste may be disposed 
of at the Department's regional disposal site.
    At present time, the Nevada National Security Site remains 
the Department's only regional disposal site available to serve 
the needs of the Department's cleanup complex.
    Commercial firms also provide each of the Department sites 
with options for mixed and low-level radioactive waste 
disposal. The Department's policy is generally not to utilize 
the commercial disposal facilities operated by the regional 
disposal compacts.
    However, when compliant, cost effective and in the best 
interest of the Government and after formal approval process 
the Department may utilize commercial disposal firms.
    Finally, I would like to provide you with an update on 
where the Department of Energy is with the disposal of greater-
than-Class C low-level radioactive waste, GTCC.
    The Department is currently finalizing the final 
environmental impact statement for the disposal of GTCC waste 
and GTCC-like waste.
    The final environmental EIS will evaluate the potential 
impacts associated with the proposed development, operation and 
long-term management of a disposal facility or facilities for 
GTCC low-level radioactive waste and GTCC-like waste.
    GTCC-like waste is radioactive waste that is owned or 
generated by DOE and has characteristics similar to those of 
GTCC waste such that a common disposal approach may be 
appropriate.
    The Department plans to identify a preferred alternative in 
the final environmental impact statement. In developing the 
final EIS, the Department will have considered public comments 
on the draft GTCC EIS, human health, disposal methods and waste 
types.
    The Department anticipates publication of the final 
environmental impact statement within the next quarter. After 
the publication of the final environmental impact statement the 
Department will submit a report to Congress as required by the 
Energy Policy Act of 2005.
    The report to Congress will include a description of the 
disposal alternatives considered in the final environmental 
impact statement and must await action by Congress.
    Congressional action would enable the Department to proceed 
with issuing a record of decision on greater-than-Class C low-
level radioactive waste disposal.
    The Department is eager to work with members of Congress on 
the path forward for GTCC low-level radioactive waste and GTCC-
like waste disposal.
    Thank you again for the opportunity to discuss the 
Department's low-level radioactive waste disposal activities.
    [The prepared statement of Mr. Whitney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you very much.
    Now, I will turn to Mr. Michael Weber, deputy executive 
director of operations for materials, waste, research date and 
compliance program with the Nuclear Regulatory Commission.
    Again, your full statement is in the record. You have 5 
minutes. Welcome.

                 STATEMENT OF MICHAEL F. WEBER

    Mr. Weber. Good morning, Chairman Shimkus, Vice Chairman 
Harper, and Ranking Member Tonko, and distinguished members of 
the subcommittee and the committee.
    I appreciate the opportunity to testify this morning on the 
U.S. Nuclear Regulatory Commission's regulation of low-level 
radioactive waste.
    In my testimony I will highlight, one, NRC's regulatory 
role working in partnership with the States, two, the current 
regulatory framework, and three, two current regulatory 
improvement initiatives.
    Since the Congress established the Nuclear Regulatory 
Commission in 1975, the agency has worked with our State 
partners to ensure protection of the public health and safety 
associated with low-level waste management.
    This waste is generated by thousands of industrial, 
academic, medical, and Government licensees across the United 
States. Disposal of the waste is permitted in 4 operating 
facilities and the importance of the safe management of 
commercial low-level waste has long been a matter of 
congressional interest.
    In 1980, the Congress enacted the Low-Level Radioactive 
Waste Policy Act and amended it in 1985. Under the Atomic 
Energy Act of 1954, the NRC regulates the safety and security 
of the generation, storage, transportation and disposal of 
commercial low-level waste.
    Pursuant to the law, the NRC has relinquished its licensing 
and enforcement authority over most nuclear materials in 37 
States that have entered an agreement with the NRC--so-called 
agreement States.
    An agreement State conducts the regulatory programs that 
are adequate and compatible with the NRC regulatory 
requirements and oversees agreement State programs.
    The four commercial low-level waste disposal facilities and 
more than 85 percent of the licensees that generate low-level 
waste are regulated by the agreement States.
    The NRC and agreement States have established a 
comprehensive regulatory framework that ensures the safety of 
low-level waste management.
    Among the regulations the NRC has established, 10 CFR Part 
61 contains the primary regulations governing the disposal of 
low-level waste.
    The promulgation of Part 61 in 1982 was driven by some of 
the same factors that prompted the Congress to enact the Low-
Level Radioactive Waste Policy Act of 1980, including the need 
to establish a stable regulatory regime to govern safe disposal 
of the waste.
    The NRC is currently working to improve the regulations and 
the regulatory framework. Several years ago, the commission 
initiated development of a rule making proposal to improve Part 
61 with respect to waste streams that were not contemplated at 
the time of the initial development of the rule in the late 
1970s such as the disposal of significant quantities of 
depleted uranium waste.
    On March 26th of this year, the commission published for 
public comment a proposed rule and associated draft guide and 
NRC solicited comments from the public and also conducted five 
public meetings in the vicinity of the operating disposal 
facilities.
    The comment period for this proposed rule closed last 
month, September 21st. The NRC staff is currently analyzing 
public comments.
    As we develop the final rule, we will continue to work 
closely with the agreement States and we expect to provide a 
draft rule for commission consideration in 2016.
    The second initiative is the disposal of greater-than-Class 
C waste. This waste has concentration of radio nuclides that 
exceed the limits established by the NRC for Class C waste and 
is generally not therefore suitable for near surface disposal.
    Congress assigned the responsibility for the disposal of 
this waste to the Federal Government and required that the 
waste be disposed of in a facility licensed by the Nuclear 
Regulatory Commission.
    In 1989, the commission amended its regulations in Part 61 
to require such waste be disposed of in a geologic repository 
or in an alternative disposal facility approved by the 
commission.
    On January 30th, 2015, the State of Texas sent a letter to 
the NRC enquiring whether a State, as an agreement State, can 
regulate the disposal of this waste.
    In July 2015, the NRC staff provided the commission with an 
analysis of the associated issues along with options and a 
recommendation that the NRC allow the State of Texas to 
regulate the disposal of the waste.
    NRC also recommended that NRC conduct a rule making to 
establish regulatory requirements covering this waste and on 
August 13th, 2015 the commission held a public meeting with the 
staff, the State of Texas and stakeholders to discuss the issue 
and the commission is currently considering how best to 
proceed.
    NRC believes its regulatory program adequately protects the 
public health and safety. We work with our agreement State 
partners to accomplish the safety mission.
    I want to thank you for the opportunity to testify before 
you today and I would be pleased to respond to your questions.
    [The prepared statement of Mr. Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you very much. Now I will recognize 
myself 5 minutes to start the round of questioning and I would 
start with Mr. Whitney first.
    The Nevada National Security Site currently serves as a 
disposal Site for DOE-mixed waste. I understand that there was 
extensive conversations between the Department and the Governor 
in order to come to an agreement on the type and amount of 
material to be disposed there.
    Will you please describe the process and the lessons 
learned from DOE's engagement with the State of Nevada to agree 
on the memorandum of understanding?
    Mr. Whitney. Thank you, Mr. Shimkus.
    Yes, the memorandum of understanding between the Department 
and the State of Nevada was really the culmination of over a 
year of really close collaboration, regular meetings with the 
State at fairly senior levels with both the DOE and the State 
of Nevada, and it covered a wide range of issues, not just low-
level radioactive waste disposal at the Nevada National 
Security Site. The limits for what we can put into that 
facility are really governed by the waste acceptance criteria.
    The discussions did not go into that technical detail but 
they were broad discussions on general areas where our 
interests overlap and they are significant and great. And so I 
think at the end of the day, the MOU really kind of solidified 
our agreements to date and our path forward on many areas in 
addition to low-level radioactive waste.
    Mr. Shimkus. So when you say broad discussions on numerous 
things, can you give us some examples?
    Mr. Whitney. Yes. The site, of course, has a national 
security mission so there was discussion of the NNSA mission, 
other potential missions that may happen in NSSA, and protocols 
for how we communicate, how we work with not just the State of 
Nevada but the surrounding communities, and we exercised a lot 
of those already and for various reasons.
    Mr. Shimkus. Transportation discussions?
    Mr. Whitney. Transportation.
    Mr. Shimkus. Are part of the protocols?
    Mr. Whitney. Yes, sir.
    Mr. Shimkus. OK. Good. Thank you.
    Mr. Weber, the proposed revision to Part 61 standards 
include a provision that, and I quote, ``defense in depth is 
considered.''
    Will you please describe how defense in depth is intended 
to be implemented for a facility that has very limited 
operating component?
    Mr. Weber. Yes, I would be pleased to.
    In fact, there are multiple barriers that are required as 
part of a low-level waste disposal facility. So the very design 
of a facility is intended to provide defense in depth to 
accomplish the safety of the operation and the long-term 
protection of the environment from the waste.
    These are site characteristics, engineered features, 
barriers that are incorporated in the disposal facility, waste 
characteristics.
    These all contribute to the defense in depth, and defense 
in depth is one of the fundamental principles of nuclear safety 
and it is applied not just for disposal facilities but also for 
nuclear power plants and other facilities.
    Mr. Shimkus. And that would also--you use that same theory 
in high-level waste disposal?
    Mr. Weber. Absolutely.
    Mr. Shimkus. Thank you.
    Again, Mr. Weber, in its proposed changes to Part 61 
requirements the NRC has concluded that a back fit analysis is 
not required.
    Given the potential for disruption to existing low-level 
waste disposal facilities and for entities like the Nation's 
uranium enrichment facility that must dispose of depleted 
uranium would the NRC consider or reconsider the decision to 
conduct a cost benefit analysis?
    Mr. Weber. We did a cost benefit analysis as part of the 
regulatory analysis to support the proposed rule and we got 
comment on that.
    One of the principal areas of public comment that we 
received is on this whole topic of retrospective application of 
those requirements.
    So it will be one of the key issues the commission will 
consider in finalizing the rule.
    Mr. Shimkus. Great. Thank you, and I will try to get this 
last one done.
    Current regulations require the disposal of greater-than-
Class C and transuranic waste in a geological repository. 
However, NRC staff recently recommended that the commission 
delegate authority to the State of Texas to develop disposal 
criteria for a near surface facility.
    Has the NRC established limits on how much greater-than-
Class C or transuranic waste could safely be disposed in a near 
surface site and if not would limits need to be established as 
part of any rule making process?
    Mr. Weber. We have not established those limits and that is 
one of the issues that currently is pending before the 
commission.
    Mr. Shimkus. Is NRC contemplating allowing the State of 
Texas to establish these limits or would they just be 
considering granting a license that complies with NRC limits?
    Mr. Weber. We offered several options for the commission's 
consideration and until the commission makes its decision we 
don't have a final position on it.
    Mr. Shimkus. Based on your knowledge of greater-than-Class 
C and transuranic material, do you expect the limits would be 
necessary prior to licensing such a facility?
    Mr. Weber. Yes.
    Mr. Shimkus. Thank you very much, and I will turn to the 
ranking member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and Chuck Smith of the--
and I will direct this to both of you gentlemen.
    Chuck Smith of the Energy Community Alliance's statement 
recommends the NRC and DOE work together to change the way that 
the United States classifies waste for disposal, citing the 
International Atomic Energy Agency's more risk-based approach 
according to the, and I quote, ``intrinsic qualities of the 
material.''
    There seems to be a movement to a more risk-based approach 
to low-level waste disposal on both your parts including an 
assessment of what constitutes low-level waste. Is that a 
correct interpretation by me?
    Mr. Whitney. Yes, sir.
    I would say for the Department of Energy, for environmental 
management, our low-level waste management, we do use a risk-
based approach. It is based on performance assessments, site 
specific.
    So it is very quantitative and, like I said, specific to 
the site where the disposal facility would be located.
    Mr. Tonko. Thank you.
    Mr. Weber. Categories of radioactive waste that are managed 
in the United States are established in statute. So it would 
require legal changes to afford that kind of an approach.
    Now, NRC actually explored the merits of this back in the 
1980s through a notice and comment rule making and the 
conclusion of that rule making was such that the commission 
decided to continue with adherence to the existing statutory 
definitions.
    Mr. Tonko. Mm-hmm. If we were to assume this risk-based, 
would that include assessing the actual radiological content 
and activity of these wastes?
    Mr. Whitney. Sir, I am not real familiar with the ECA 
proposal. I did read Mr. Smith's testimony and we work closely 
with ECA and they are a great partner in a lot of things.
    And so we are interested in hearing more about that as we 
do a range of other issues, sitting down with them and talking 
to them. We are always open to listening to their concerns.
    Mr. Tonko. Right. Now, I hear Mr. Weber saying that you 
would need legislative authority to move in that direction.
    Mr. Whitney, would that be the case for--you obviously are 
dealing with it in somewhat of a risk-based scenario.
    Mr. Whitney. Yes. On our low-level waste, we are. Mr. Smith 
is proposing potentially a reclassification for how we classify 
waste including high-level waste and so, again, I am not real 
familiar with the details of their proposal but am interested 
in sitting down with them.
    My understanding is it would require a--the Atomic Energy 
Act clearly defines what is high-level waste, TRU waste, spent 
nuclear fuel, and byproduct material, and if it doesn't fit 
into one of those categories it is low-level waste.
    Mr. Tonko. And does DOE need NRC to take any action to aid 
in the disposal of greater-than-Class C waste or greater-than-
Class C-like waste?
    Mr. Whitney. The GTCC environmental impact statement, the 
final EIS, we anticipate issuing that within the next quarter. 
Once that is issued, depending on the preferred alternative it 
could potentially need NRC action, particularly with respect to 
the near surface disposal.
    Mr. Tonko. And are you engaged in discussions on these 
actions? You both are?
    Mr. Whitney. Yes, sir.
    Mr. Tonko. Both agencies. And have you and will you involve 
public stakeholders in deliberations on reclassification of 
waste?
    Mr. Whitney. We don't have any formal review for 
reclassifying waste right now within the Department of Energy. 
So I don't know if there would be a public participation 
process for that for us.
    Mr. Weber. If I could respond.
    From NRC's perspective that was a subject of the proposed 
rule that we put out for public comment. So we have discussed 
and engaged members of the public stakeholders in both public 
meetings and in consideration of their comments on the proposed 
rule.
    Mr. Tonko. And are there other waste streams that can be 
considered for a more risk-based approach to disposal?
    Mr. Weber. I would say from NRC's perspective, actually our 
disposal requirements dating back to 1982 were one of the 
earliest risk-informed performance-based regulations that the 
NRC issued.
    While you can always refine that as we learn through 
experience and also the development of enhanced analytical 
techniques, that is part of why we continually review our 
regulations to ensure that they are delivering on the safety 
and protection of the environment while not imposing an undue 
burden on the parties that we regulate.
    Mr. Tonko. Mr. Whitney, any further comment on that or--OK.
    With that, I yield back, Mr. Chair.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to each of 
you for being here. This is an issue that is very important.
    Obviously, we made--sometimes in the public when you hear 
low-level you let your guard down and don't realize that these 
are issues that are--have to be addressed and certainly we 
expect to figure out a way to cooperate and work together to 
achieve those goals, both with DOE and with the NRC.
    And first, for you, Mr. Weber, if I could, the NRC, I know, 
is evaluating changes to its regulations affecting LLW disposal 
including Part 61 regulations--how low-level waste is 
classified and greater-than-Class C disposal pathways.
    There appear to be areas of overlap and a precedence among 
these various initiatives.
    Has the NRC conducted a high-level analysis to determine 
whether there should be more--a more comprehensive rule making 
or at least greater coordination of seemingly disparate 
activities? If not, why not?
    Mr. Weber. OK. NRC--the rule that I mentioned previously 
back in the 1980s we did consider whether there should be an 
overarching framework regulation established to ensure that 
there is consistency and coherency to the national radioactive 
waste management framework.
    The conclusion of that rule at that time was that such an 
overarching framework was not necessary. Now, having said that, 
the initial development of these regulations dates back to the 
1970s and there was a high-level interagency group that 
established the basic foundations of the way that we manage 
radioactive waste in the United States today.
    Mr. Harper. OK. And in March of 2015 the proposed rule was 
released for public comment. What type of responses have you 
been getting?
    Mr. Weber. We received about a hundred separate distinct 
comment letters, many very thoughtful comments. We also 
received a large number of form responses.
    So we have our work cut out for us to go through the range 
of issues that we heard comments on.
    Mr. Harper. And that public comment period is still 
ongoing?
    Mr. Weber. No, it closed in late September.
    Mr. Harper. OK. Great. Thank you.
    Mr. Whitney, the Federal Government is responsible for the 
permanent disposal of greater-than-Class C waste which the NRC 
determines is not suitable for a near surface disposable 
facility.
    In addition to commercially generated GTCC, the Department 
of Energy has an inventory of GTCC waste, which must be stored 
until Congress approves the disposal facility.
    So, Mr. Whitney, what is the current inventory of GTCC 
waste owned by the Department of Energy?
    Mr. Whitney. Thank you, sir.
    So the Department doesn't formally have a classification 
for greater-than-Class C, and we do, for the purpose of the 
environmental impact statement, call it GTCC-like, and it 
consists of the low-level radioactive waste that might have a 
characteristic similar to the GTCC waste as classified by NRC 
as well as some of our transuranic wastes that don't have a 
disposal pathway.
    But the EIS evaluated about 12,000 cubic meters of waste, 
and about a quarter of that is present and future, is owned by 
the Department.
    Mr. Harper. Got it. Congress directed DOE to recommend a 
disposal pathway for GTC or, I guess, GTCC-like waste in 2005. 
When do you expect DOE will provide the final report to 
Congress and what are the costs and risks of delay?
    Mr. Whitney. We anticipate issuing that final EIS within 
the next quarter and then we will submit the report to Congress 
that outlines the disposal alternatives, the options, the 
preferred alternative and some of the things associated with 
cost, who pays, and how we can ensure the safety.
    We will follow that and we will, of course, await 
congressional action prior to issuing a decision.
    Mr. Harper. So when you say next quarter, you don't mean 
the quarter that we are in--you mean the first quarter of 2016?
    Mr. Whitney. Yes, sir.
    Mr. Harper. OK. I believe my time will expire before I can 
get an answer here, so I will yield back.
    Mr. Shimkus. Aren't we in the first quarter of 2016, so you 
mean the second quarter? Is that right?
    Mr. Whitney. By the end of the next quarter, so by the end 
of March. It could be sooner. We are going through the formal 
DOE review process, so we are at the very late stages of the 
process right now.
    Mr. Shimkus. Thank you for clearing that up.
    Very good. Now I would like to recognize the gentleman from 
Texas for 5 minutes, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, you and ranking member, 
for holding the hearings on low-level radioactive waste.
    I would like to thank all our panelists for being here. I 
share concerns of many of the subcommittee that the Federal 
Government needs to move forward to find a suitable site for 
greater-than-Class C radioactive waste.
    It is my hope that Department of Energy and NRC are taking 
all safe options under strong consideration in working with 
private sector and local communities to find a solution that is 
the best interest of all the impacted stakeholders.
    Mr. Weber, on January 30th of 2015, the Texas Commission on 
Environmental Quality sent a letter to the NRC requesting 
responses to questions concerning the State of Texas' authority 
to license of disposal cell for the greater-than-Class C, GTCC-
like and transuranic waste.
    I understand that in July in a paper to the commission the 
NRC developed three options and recommended one of these 
options, Option two, in allowing the State of Texas to license 
and regulate the disposal of GTCC waste.
    Is this correct?
    Mr. Weber. That is correct.
    Mr. Green. I know the NRC has yet to vote on this. But can 
you talk a bit more about the proposal and why the staff 
recommended allowing Texas to license and regulate the disposal 
of the GTCC waste?
    Mr. Weber. Some of the commissioners have voted, but until 
they all complete their votes there won't be a decision from--
--
    Mr. Green. Is there a time frame for that?
    Mr. Weber. They try to do it as expeditiously as they see 
fit. In terms of your request on the alternatives, the staff 
recommended alternative two, which would allow the State of 
Texas to license the disposal of it.
    But they would require the commission to move forward and 
develop the criteria upon which that decision would be based so 
that the commission could fulfill its responsibilities under 
the Low-Level Radioactive Waste Policy Act of approving the 
disposal of the greater-than-Class C waste.
    And the other options NRC could issue the license. That is 
not very appealing from the NRC's perspective--the staff's 
perspective as laid out in the paper for a variety of reasons.
    And the final option is the do nothing or the no action 
alternative. That is also not very appealing, given that the 
waste exists and the commission's obligation is to fulfil its 
mission, which is protecting the public health and safety.
    Given that, disposal of that waste is a prudent approach.
    Mr. Green. Is there any guidance from the NRC on if the 
commission decides to go forward with it and develop it is 
there any guidance from NRC? Do you work with the commission in 
Texas? Has this happened before with any other State the NRC is 
working with?
    Mr. Weber. Only on a very limited basis. After the Congress 
enacted the legislation, the Low-Level Radioactive Waste Policy 
Amendments Act, in 1985, there were a handful of instances 
where the operating disposal facilities, the States, came to 
the NRC and said we would like permission to dispose of this 
small quantity of waste and so NRC did work with the States.
    Clearly, if the commission moves forward on the options 
that were presented to it by the NRC staff, we would be working 
quite closely with the State of Texas.
    Mr. Green. Our committee, obviously, has jurisdiction--the 
subcommittee and the full committee over the NRC and we have 
had innumerable hearings over the last few years about what we 
are going to do with not only the low-level but also ultimately 
the high-level.
    And so I just hope that the NRC would work with our Texas 
commission because if this is the first location in the country 
that would be able to accept this GTCC waste, it could be a 
prototype, I would hope, because the rest of the country needs 
to also develop their own waste sites because west Texas is a 
big place but I don't know if it is that big.
    So, Mr. Chairman, I have no other questions and thank you. 
I yield back.
    Mr. Shimkus. Oh, it is that big. It is that big. It is the 
first time I have heard a Texan say it is not that big. Now, I 
don't know what is going on here. If you don't mind, I will 
correct the record. It is that big.
    Mr. Green. OK. Well, Bill, you are closer to west Texas 
than I am.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Indiana, Mr. Bucshon, for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Mr. Whitney, the USEC Privatization Act assigned 
responsibility to the Department of Energy to dispose of 
depleted uranium, a byproduct of uranium enrichment.
    Has the NRC worked with the DOE to develop a disposal 
pathway for depleted uranium?
    Mr. Whitney. Sir, I believe those discussions are ongoing. 
We have had discussions, and they are ongoing.
    Mr. Bucshon. OK. I don't have the date here. When was the 
privatization act? When were you first directed to that?
    Mr. Whitney. And I don't know, either. I would have to get 
back with you on that.
    [The information follows:]

        The USEC Privatization Act was enacted in 1996.

    Mr. Bucshon. It is always surprising me in hearings where 
Congress has said to do things, like, 10 years before and we 
are still talking about it. But this may not be one of those 
instances.
    Will the NRC's current Part 61 rule making affect the DOE's 
plans to dispose of depleted uranium at commercial disposal 
sites?
    Mr. Whitney. I don't believe it would.
    Mr. Bucshon. OK. And what would the effect of the DOE's 
disposal plans for depleted uranium--effect on the DOE's 
disposal plans for depleted uranium if the NRC decides to 
incorporate greater-than-Class C and transuranic waste as part 
of their Part 61 rule making?
    Mr. Whitney. It is unclear to me at this point, sir.
    One, it would depend on the ultimate disposal pathway for 
the depleted uranium, of course, and then what the final rule 
making is.
    Mr. Bucshon. OK.
    Mr. Whitney. I am just unaware of any direct implications. 
I apologize.
    Mr. Bucshon. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    I believe that Mr. Green asked most of my questions so I 
will pass at this point.
    Mr. Shimkus. OK. The Chair now recognizes the gentleman 
from Pennsylvania. Do you have any questions, Joe?
    Mr. Pitts. Mr. Weber, as a part of the public comment 
process for NRC's revisions to Part 61 regulations--the 
governmental low-level waste disposal facility--the agreement 
States requested that NRC revise the compatibility requirements 
from what is known as compatibility B, which require agreement 
States to have the same regulatory standards as NRC, to 
compatibility C, which permit agreement States to have more 
stringent regulatory standards than NRC regs.
    Will the NRC staff address this issue as part of the rule 
making process prior to providing the rule to the commission 
for approval?
    Mr. Weber. Absolutely, sir.
    That is part of our process. The staff will formulate a 
recommendation. We will also work with the agreement States in 
formulating the recommendations to go back to the commission.
    So there will be lots of discussion on that topic. It did 
get a lot of comments.
    Mr. Pitts. Mr. Whitney, has the NRC solicited DOE input on 
the matter of revising the current Part 61 rule making as 
opposed to initiating a new rule making after this one is 
completed to include the disposal of greater-than-Class C and 
transuranic waste?
    Mr. Whitney. I believe discussions did occur, sir, yes, 
between DOE and NRC.
    Mr. Pitts. Would a DOE site to dispose of greater-than-
Class C waste have to be licensed by the NRC?
    Mr. Whitney. The Department of Energy does not have the 
classification of GTCC--we have ``GTCC-like waste,'' which is 
regulated by the Department of Energy.
    So if a preferred alternative was a DOE site and our GTCC-
like waste went there, we would not need an NRC license.
    Mr. Pitts. Given the need to dispose of GTCC and TRU waste, 
is it reasonable to delay the current rule making to include 
GTCC and TRU waste?
    Mr. Weber. I believe that is a topic that is currently 
under commission consideration.
    Mr. Pitts. What would be the effects on the DOE if the 
current Part 61 rule making is delayed?
    Mr. Weber. Do you want to answer that?
    Mr. Whitney. I am not aware of any direct implications of a 
delay in the rule making. We are, of course, moving forward 
with the environmental impact statement, which will outline the 
alternatives and the preferred alternative. And so at this 
point, I don't see any implications or impacts to delaying the 
rule making.
    Mr. Pitts. OK. And I am not sure which one to ask this but 
did the Yucca Mountain license application include the option 
of disposing of greater-than-Class C material in the 
repository?
    Mr. Weber. Yes.
    Mr. Pitts. In light of the fact that the Department 
previously submitted a license for the disposal of GTCC waste 
at Yucca Mountain, if the NRC issues the Yucca Mountain 
license, will that site be considered as part of the process 
for DOE to recommend a disposal pathway?
    Mr. Whitney. I am sorry. Can you repeat the question, sir? 
I apologize.
    Mr. Pitts. Yes. In light of the fact that the Department 
previously submitted a license for the disposal of GTCC waste 
at Yucca Mountain, if the NRC issues the Yucca Mountain license 
will that site be considered as part of the process for DOE to 
recommend a disposal pathway?
    Mr. Whitney. Yucca Mountain was not considered an 
alternative since the administration deemed it an unworkable 
solution and so it was not considered and has not been 
considered in the GTCC siting process.
    Mr. Pitts. Well, Mr. Weber, as part of the developing 
recommendation on providing Texas authority to license GTCC 
facility, did NRC staff consider proceeding with the Yucca 
Mountain license application as an alternative disposal 
pathway? If not, why not?
    Mr. Weber. The staff completed the safety evaluation report 
for Yucca Mountain and we are currently working on the 
supplement to the environmental impact statement on Yucca 
Mountain.
    And when we conclude that, we will have largely exhausted 
the congressionally appropriated funds for NRC licensing work 
on Yucca Mountain.
    What we considered in formulating our recommendations to 
the commission on greater-than-Class C waste is a response to 
the State of Texas proposal as an alternative to what is 
required today in Part 61. That would be something other than a 
geologic repository.
    So the advice--the recommendations we provided to the 
commission was the consideration of near surface or sub near 
surface disposal as an alternative for geologic repository 
disposal of greater-than-Class C waste.
    Mr. Pitts. Thank you.
    My time has expired.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I guess I can ask both of you this question. Earlier this 
month, there was a serious incident at a closed down low-level 
waste disposal site in Nevada that involved an explosion and 
fire and the successor to that company that operated that site 
currently manages one of the low-level waste sites currently in 
operation.
    Meanwhile, in February, the Nation's only facility for 
disposal of transuranic, or TRU waste, generated by DOE 
activities was shut down indefinitely as a result of a series 
of incidents there.
    So given these recent disturbing developments can each of 
you tell us why the public should have confidence in DOE's 
ability or NRC's or the State's ability to safely regulate the 
sites?
    I think we can--I think we can but I just think the public 
needs to be reassured. We will start with Mr. Whitney, I guess.
    Mr. Whitney. I thank you, sir.
    The incident in Nevada was at a non-DOE-owned facility. I 
believe it was in or near Beatty, Nevada. The Department did 
provide some technical assistance on the emergency response 
side.
    I believe we are still trying to understand what happened 
and work with them because we would like to make sure we learn 
any lessons from that just like we would like to learn from any 
incidents that might occur at DOE facilities.
    With respect to the Waste Isolation Pilot Plant that did 
shut down in February of 2014 as a result of a couple of 
incidents there and we had some significant failures in many 
areas with respect to our operation of a facility there, with 
respect to packaging at the generator site where--in the 
processing where the packaging occurred before it got to WIPP.
    And we are taking those lessons learned and not just 
applying them at WIPP. A tremendous amount of work has happened 
in the last year and a half to ensure the safety of that 
facility and when we recover and resume operations that we are 
able to do so in a safe manner, but also across the complex, 
taking those lessons learned to make sure that we don't repeat 
those at all our sites, whether they are generator sites, 
generate transuranic waste that will go to WIPP, or any of our 
sites where there might be issues that we can apply whether 
they are TRU waste generators or not.
    I believe that the public should and hope the public will 
have confidence in DOE's ability to manage its low-level and 
transuranic waste.
    Mr. Pallone. Thank you. Mr. Weber.
    Mr. Weber. I would like to add to what my colleague 
offered. We are working with the State of Nevada to understand 
what happened at the Beatty low-level radioactive waste 
disposal facility.
    The part of the facility that was affected by the explosion 
and fire. I understand there is a trench that was---waste was 
placed into and the--around 1972, perhaps '69 to 1973 time 
frame, far predating the requirements that we put in place in 
1982, and those regulations were put in place in Part 61 
specifically to enhance the level of protection associated with 
the safe management of the radioactive waste--things like waste 
characteristics, waste forms that did not exist at that time. 
So we are trying to learn with the State about what happened.
    My understanding is that there were no elevated levels of 
radiation associated with the fire and the explosion. So while 
it is not something that is desired to occur at a disposal 
facility. The public is safe in the vicinity of that facility.
    Mr. Pallone. All right. Thank you both. I have another 
question here. I don't know if I have time to go through this 
but let me try.
    Mr. Whitney, in your testimony, you discuss the different 
classifications of radioactive waste and you mentioned some of 
the facilities that accept particular classes of it like Energy 
Solutions Utah, which accepts Class A mixed and low-level waste 
and the waste control specialist facility in Anderson, Texas, 
which accepts Class A, B and C waste.
    And as we have heard today, greater-than-Class C waste, or 
GTCC storage, is treated as a separate issue altogether.
    Can you explain what it is about the unique storage needs 
of, say, Class A versus Class C versus GTCC waste that makes 
them require unique regulatory approaches and how prepared 
would current low-level waste storage facilities be to accept 
GTCC waste if that licensing became an option? You have 27 
seconds.
    Mr. Whitney. And if you don't mind, I will turn to my 
colleague. That is an NRC classification scheme.
    Mr. Pallone. Sure.
    Mr. Weber. The greater-than-Class C waste contains higher 
concentrations of longer lived radionuclides and thus the 
disposal of that waste requires higher barriers so that the 
public is protected over a long period of time and that is the 
focus of the State of Texas their review and so would also be 
the focus of the NRC in working with the State of Texas.
    Mr. Pallone. All right. I am going to leave--did you want 
to add something? OK. Thank you.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and gentlemen, thank 
you for being with us today.
    Mr. Whitney, I want to build upon the conversation that we 
began last time you testified in September.
    As you might remember, we discussed the importance of the 
decontamination and the decommissioning work at the former 
Gaseous Diffusion Plant at Piketon, Ohio.
    Astonishingly, DOE has recently decided to terminate 
funding for the American Centrifuge Project also located at 
Piketon.
    If DOE doesn't soon reverse its decision, we are about to 
add to the price tag of that D&D work because that facility 
there will have to be dealt with, which DOE already attempts to 
under fund year after year.
    So that D&D work is--it is a battle each and every year, it 
seems, to get DOE to put the appropriate amount of money 
towards it.
    DOE's own analysis has confirmed that the ACPs-- AC100 
centrifuge technology will be needed to meet our national 
security enrichment needs in as little as 10 years.
    So allowing the ACP, currently our only domestic enrichment 
capability to shutter its operations now only require--only to 
require its inevitable remobilisation shortly thereafter seems 
to me is a severe mismanagement of Federal resources and an 
ill-advised decision because rehiring of this uniquely skilled 
workforce and its overall remobilisation will prove costly.
    So the national security optics and consequences of the ACP 
closure are both very troubling. So, Mr. Whitney, some 
questions.
    Was the D&D costs to dismantle the current Piketon AC100 
facility--was that taken into consideration when DOE decided to 
cease ACP funding? Do you know if they contacted anyone in your 
department about that?
    Mr. Whitney. I am not aware that they did. We have a 
process of transferring excess facilities from one program to 
the other. So there is a formal process that we would go 
through once the decision is made.
    It is a programmatic decision that didn't necessarily need 
to involve EM. But there would be a process then for transfer 
of the facility when it happens and things of that nature.
    Mr. Johnson. OK. Let us assume for a second that the 
closure continues and goes forward and that there is a D&D 
cleanup effort there on the current ACP facility as well.
    What impact could that closure have on the current D&D 
cleanup time line there in Piketon?
    Mr. Whitney. I don't know. I won't be able to provide 
specifics just because we would go through that process when 
the facilities became owned by EM and we would bring into our 
life cycle baseline and we would sequence out the work and see. 
But it would certainly add D&D costs and cleanup costs and----
    Mr. Johnson. Is it safe to say, certainly, given the amount 
of time that we have already spent on the D&D cleanup for the 
gaseous diffusion facility, is it safe to say that that cost 
and time line implications would be significant?
    Mr. Whitney. I can't say that, sir, because I am just not 
sure.
    Mr. Johnson. OK. Do you know if the Office of Environmental 
Management was consulted before this decision was made? Did 
anyone talk to you guys about this?
    Mr. Whitney. We were not involved in the decisionmaking 
process because it was a different program.
    Mr. Johnson. All right.
    We understand that the American Centrifuge program shares 
utility and overhead costs to the tune of about $9 to $10 
million with the Portsmouth Gaseous Diffusion D&D program and 
that shuttering the ACP will shift all of those costs to the 
D&D budget.
    Did they consult with you and have you folks given any 
consideration as to how you will pay for this increase in new 
costs?
    Mr. Whitney. We have given consideration to that and we 
have reached out to our colleagues in the other programs 
formally to start that discussion on how those costs will be 
covered.
    Mr. Johnson. OK. But no decisions have been made?
    Mr. Whitney. No, sir.
    Mr. Johnson. OK. And finally, do you have any--and I think 
you have already answered this but just to be sure, if the 
Department of Energy does press forward with the closure of the 
American Centrifuge project facility, do you have any idea what 
its cleanup costs would be?
    Mr. Whitney. No, sir. At this point, I don't. But that 
would be part of our process if we take over as owner of the 
facility.
    Mr. Johnson. How long will it take you to--how long will it 
take you to go through that type of analysis to determine what 
the cleanup costs would be, from start to finish?
    Mr. Whitney. Generally, once we have ownership of the 
facility it would not take a long time because we have a lot of 
precedent at other facilities. It might be similar at other 
sites.
    Mr. Johnson. Are we talking weeks, months?
    Mr. Whitney. Probably months. Not many months.
    Mr. Johnson. OK. All right.
    Well, thank you very much. Mr. Chairman, I yield back.
    Mr. Shimkus. Chairman yields back his time.
    Seeing no other members present, we would like to thank you 
for being here and answering our questions and your testimony, 
and with that we will excuse the first panel and seat the 
second.
    So we will begin with the second panel. Thank you for 
coming. I will do similar as I did at first. I will just 
introduce you when it is your time and we want to welcome you 
here.
    So first to speak to us is Ms. Jennifer Opila. Is that--
Opila. All right.
    Ms. Jennifer Opila, director, Organization of Agreement 
States. Thank you. Your full statement is in the record. You 
have 5 minutes.

STATEMENTS OF JENNIFER OPILA, DIRECTOR, COLORADO, ORGANIZATION 
 OF AGREEMENT STATES; LEIGH ING, EXECUTIVE DIRECTOR, TEXAS LOW-
LEVEL RADIOACTIVE WASTE DISPOSAL COMPACT COMMISSION; AND CHUCK 
 SMITH, JR., COUNCIL MEMBER, AIKEN COUNTY, SOUTH CAROLINA, AND 
             CHAIRMAN, ENERGY COMMUNITIES ALLIANCE

                  STATEMENT OF JENNIFER OPILA

    Ms. Opila. Thank you very much, Chairman, and Ranking 
Member Tonko, and distinguished members of the subcommittee.
    I appreciate the opportunity to represent the Organization 
of Agreement States and discuss the OAS' views on low-level 
radioactive waste management with you.
    The membership of OAS consists of State radiation control 
directors and staff from the 37 agreement States, who are 
responsible for the implementation of their respective 
agreement State programs.
    Agreement States are those States that have entered into an 
effective regulatory discontinuance agreement with the Nuclear 
Regulatory Commission under subsection 274(b) of the Atomic 
Energy Act, the AEA.
    The role of the agreement States is to regulate most types 
of radioactive material in accordance with the compatibility 
requirements, the AEA.
    Under its own internal practices, the NRC periodically 
reviews the performance of each agreement State to assure 
compatibility with the NRC's regulatory standards.
    The purpose of the OAS is to provide a mechanism for these 
agreement States to work with each other and with the NRC on 
regulatory issues associated with their respective agreements.
    Throughout the years, both agreement States and 
nonagreement States have had the responsibility for 
implementing the Low-Level Radioactive Waste Policy Act.
    As a result of the Low-Level Radioactive Waste Policy Act, 
States have formed compacts that have facilitated the safe 
disposal of radioactive waste.
    At times, the compact system has been criticized because it 
has resulted in many States not having access to disposal 
facilities.
    However, with the recent establishment of the Waste Control 
Specialist Facility in Texas, the establishment of the Texas 
Vermont Compact and that compact allowing access to the WCS 
facility from out of compact facilities, this situation has 
been largely resolved and that all States now have access to a 
waste disposal facility.
    Additionally, the WCS facility has added much needed 
capacity to the overall low-level waste disposal inventory. The 
OAS board believes that the compact system should be maintained 
so that States can control the import and export of low-level 
radioactive waste within their jurisdiction.
    Agreement States play a vital role in the regulation of 
low-level radioactive waste disposal in the United States. All 
four active low-level waste sites operate in the agreement 
States of Texas, Utah, South Carolina, and Washington.
    It is these States, not the NRC, who have decades of 
experience in regulating low-level waste disposal. These States 
brought this experience to the recent discussions of changes to 
10 CFR Part 61, the Federal rule regarding low-level 
radioactive waste disposal.
    The purpose of this rule change was to consider the impacts 
resulting from the disposal of unique waste streams such as 
significant quantities of depleted uranium from the operation 
of a commercial uranium enrichment facility.
    The OAS board has two primary objections to the current 
proposed amendments to Part 61. First, the board objects to 
redoing a sites performance assessment unless that site opts to 
take significant quantities of long-lived alpha emitters such 
as depleted uranium.
    Sites that are not going to be accepting these unique waste 
streams do not need to conform to a performance assessment 
process that is designed specifically for those unique waste 
streams.
    Importantly, performance assessments addressing the 
disposal of significant quantities of depleted uranium for two 
of the existing low-level waste disposal facilities have either 
been completed or will soon be completed.
    Second, the board proposes compatibility C designation 
instead of compatibility B designation, as currently proposed 
by the NRC for the new requirements of Part 61.
    Many States that regulate low-level radioactive waste sites 
currently have State standards that are more stringent than the 
requirements in the proposed rule.
    These States should not be forced to weaken their standards 
to conform to the new NRC rules. Compatibility C designation 
would allow these States to implement standards that are 
acceptable to the State and the communities that host these 
disposal facilities as long as those standards are at least as 
stringent as the NRC standards.
    Thank you very much.
    [The prepared statement of Ms. Opila follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Next, I would like to turn to Ms. Leigh Ing, executive 
director of Texas Low-Level Radioactive Waste Disposal Compact 
Commission.
    You are recognized for 5 minutes.

                     STATEMENT OF LEIGH ING

    Ms. Ing. Thank you very much and thank you for the 
opportunity to provide testimony, Chairman Shimkus and Ranking 
Member Tonko. I will be providing testimony today on low-level 
radioactive waste compacts, in particular my compact, Texas and 
Vermont.
    As you are well aware, low-level compacts are agreements 
between two or more States in which one of the States becomes 
the host State by providing a disposal facility.
    The remaining States in that compact are guaranteed access 
to low-level radioactive waste to that disposal facility. 
Currently, we have 10 compacts that have been established in 
this country, 3 of which have disposal facilities.
    We have the Richland facility in the Northwest Compact that 
includes the States around Washington as well as Hawaii and 
Alaska, and that facility can take Class A, B, and C waste.
    We also have the Clive facility in Utah, which is open to 
all States but it can take only Class A. We also have the 
Barnwell facility in South Carolina that can take waste from 
South Carolina, New Jersey and Connecticut.
    And then we have my compact, the Texas and Vermont compact, 
which includes only the State of Texas and Vermont, which 
guarantees access to all low-level waste generated in Texas and 
in Vermont.
    One of the things unique about my compact is that--and 
there is the map that has all of the compacts and you can see 
where I have--we have a facility in the corner of Texas and 
there are stars where there are facilities that can take low-
level radioactive waste in our compact.
    [The information appears with Ms. Ing's prepared 
statement.]
    One of the things that is unique about my compact is that 
the State of Texas has passed a statute which allows our 
compact to accept imports from all the other States, the 
District of Columbia and territories up to a limit of 275,000 
curies per year.
    The role--the very important role of my compact which is 
composed of eight voting members and one alternative, six of 
those members are put in place by the Governor of Texas. Two, 
in the alternate, are put in place by the Governor of Vermont.
    One of my Texas commissioners by my compact law is required 
to be a representative of the local community. What that 
commission does is we take a look at all generators or brokers 
who may choose to import to our facility and make sure that the 
applications to import meet all of the criteria for import into 
our compact.
    We also work with the State of Texas to ensure that the 
waste coming in is acceptable to the owner of the site, the 
State of Texas. We meet about--approximately every six weeks to 
approve all of these that we deem are approvable. To date, we 
have approved almost a hundred import applications that 
represent imports from 40 States and from Puerto Rico as well 
as from the District of Columbia.
    Overall, we regard what we have been doing has been very 
successful. It has been a learning process for us. We are the 
first compact that takes imports this way and learning how 
generators and brokers work and how our fellow compacts work is 
that we can work collegiately with our compacts had been a very 
good process.
    But we have been learning and tweaking our process as we 
learn more.
    I would say there are three very important points to make 
that we have learned through this process. One, because of our 
facility in the Andrews area, we now have access--in concert 
with our other facilities we have access to all 50 States, the 
District of Columbia, and territories in this country for low-
level radioactive waste as a result of the compact system as 
put forth by the Low-Level Waste Policy Act.
    Although it may not have been implemented exactly as 
intended, we do now have waste capacity for everywhere in the 
United States. The other thing that I think is important to 
point out is that one of the reasons we have this is because 
the compacts can exclude waste outside of the compact if it 
chooses to do so, as was done by the Atlantic compact and was 
done by the Northwest Compact. That can also be done in ours.
    But currently, given how imports assist the country and 
assist the viability of our facility, and the State of Texas 
and locals also get fees from that, there is not direction that 
has been put forward to limit that at this time.
    The third and final point I will make is that my 
commissioners unanimously believe it is important to have a 
disposal pathway and to do everything in our process and 
working with generators and brokers to make that pathway 
available so that as opposed to being stored it is disposed of 
up to 275,000 curies per year at the facility.
    And that concludes my remarks. Thank you very much for 
allowing me to provide testimony today.
    [The prepared statement of Ms. Ing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. You are welcome. We are happy to have you 
here.
    Next, I would like to turn to Mr. Chuck Smith, council 
member of Aiken County--I visited in Aiken County just last 
spring--South Carolina, chairman of the Energy Community 
Alliance.
    So welcome. You are recognized for 5 minutes.

                 STATEMENT OF CHUCK SMITH, JR.

    Mr. Smith. Thank you, Chairman Shimkus, Ranking Member 
Tonko and members of the subcommittee. Thank you for inviting 
me to testify today.
    Again, I am Chuck Smith, council member from Aiken County, 
South Carolina. I am a board member of the Savannah River Site 
community reuse organization and chairman of Energy Communities 
Alliance, the association of local communities that are 
adjacent to, impacted by or supporting DOE activities.
    Our communities have long played a key role in supporting 
the country's national security efforts, hosting these 
facilities with the understanding that the waste would 
ultimately be disposed of in a safe and timely manner.
    ECA understands that nuclear waste disposition presents 
many challenges, often more political than technical, and as 
you are well aware the development of a geological repository 
has not proceeded as planned and which is currently receiving 
waste.
    Therefore, there are waste streams in our communities that 
still have no clear disposal path and we remain de factor 
nuclear waste storage sites.
    Today, I would like to make three recommendations. First, 
ECA urges Congress to consider feasible alternatives to move 
waste out of our community safely, beginning with classifying 
waste based on its composition, not just by where it 
originated.
    This would allow the country to move forward properly, 
safely and scientifically to dispose of radioactive waste and 
save taxpayers millions of dollars, and we think it just makes 
sense.
    ECA believes that changing the way the United States 
classifies waste can provide additional safe publically 
acceptable disposable alternatives, leading to lower Federal 
and taxpayers cost for storage and less risk to human health 
and the environment.
    Our radioactive waste classification system currently 
relies primarily on point of origin rather than composition, 
with specific hazards posed by its disposal.
    This approach has many deficiencies. It can be misleading. 
Some waste classified as low-level waste can be more long lived 
and pose a higher risk than others labelled high-level or 
transuranic.
    It could be inconsistent. Low-level waste is defined by 
exclusion whereas high-level waste is defined by its source. It 
can also be vague as is the case with the existing definition 
for high-level waste, which states the waste must contain 
fission products in sufficient concentrations.
    This does not adequately address the current state of 
defense high-level waste, some of which could technically 
qualify as transuranic waste if based on its radioactive 
material content. Only the U.S. classifies nuclear waste this 
way.
    ECA recommends that NRC and DOE work together to consider 
this option. Many stakeholders feel that NRC and DOE already 
have the existing authority to make the change.
    ECA is looking to Congress to implement a change 
immediately through legislation. ECA's multi community task 
force has drafted proposed language for congressional 
consideration and we have shared this with your staff.
    For greater-than-Class C waste disposal in a geologic 
repository is the only method currently approved by the NRC. In 
its absence, greater-than-Class C and greater-than-Class C-like 
waste which includes waste from DOE cleanup programs, has no 
disposal path.
    As the Savannah River Site community reuse organization 
specifically noted in a 2011 letter to DOE, this waste is 
considered orphaned and they do not support Savannah River Site 
as a potential candidate for its disposal.
    As a board member of the SRS CRO, we follow the community's 
guiding principle which is no waste or excess material shall be 
brought into South Carolina unless and improved and funded 
pathway exists for processing a shipment to either a customer 
or an out-of-State waste disposal facility and clarifying waste 
definitions would be helpful in identifying those disposal 
paths.
    Number two, ECA recommends that full consideration be 
given--support be given to communities and States interested in 
providing alternative storage and disposal options as part of a 
consent-based process.
    Greater-than-Class C and greater-than-Class C-like waste is 
essentially the same as remote handled transuranic waste from 
the defense sector, which is already exposed of at WIPP near 
Carlsbad, New Mexico.
    The local communities there are knowledgeable on these 
issues and supportive of the cleanup efforts. If DOE and NRC 
determine this alternative is safe, secure and reliable, if 
legislation is passed to allow WIPP to accept the commercial 
waste as well as the defense waste it already takes, if the 
necessary regulatory changes are made and resources are 
provided for outreach and education to ensure the impacted 
communities in the State understand the potential risk and 
benefits and approve, WIPP could take appropriate classified 
transuranic waste as well as a small amount of commercial 
greater-than-Class C waste.
    This could result in more room for high-level waste and 
spent nuclear fuel in Yucca Mountain or any other geological 
repository.
    As you are well aware, Yucca Mountain is considered full 
before it even opens. I should also mention the efforts by the 
State of Texas to license a disposal cell for greater thank 
Class C and greater-than-Class C-like waste or transuranic 
waste.
    Waste control specialists has a proven track record for 
safe disposal of low-level waste in Texas. They work closely 
with the surrounding communities and they too are interested in 
taking the waste.
    Nye County also supports the inclusion of Yucca Mountain as 
an alternative for disposal of greater-than-Class C waste. 
However, DOE took it off the table in its draft EIS prior to 
the resolution of the regulatory and legal issues.
    This was due in large part to the administration's 
determination that Yucca Mountain is not a workable option and 
suspension of its licensing activities with the NRC.
    And lastly, the public must have the opportunity to 
formally comment on any preferred alternative in pursuit of a 
consent-based process.
    ECA looks forward to reviewing DOE's final greater-than-
Class C EIS when it is released. However, as impacted 
communities we stress that the public must have an opportunity 
to formally comment on DOE's preferred alternative, especially 
as we move towards implementing a consent-based process.
    This needs to happen even if DOE will have to delay its 
recommendation to Congress and any record of decision while 
they take public input into account.
    In closing, there are options and the Federal Government 
needs to give serious consideration to all safe alternatives. 
Doing so may allow us to overcome stalemates, build momentum 
and implement a comprehensive strategy that will get waste 
moving out of our communities as safely and expeditiously as 
possible.
    Again, I want to thank you for the opportunity to present 
this testimony to you today.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you, Mr. Smith, and I will recognize 
myself 5 minutes for opening for the round of questioning and 
just say to start is that the whole idea of having these 
hearings is to get that input as we try to move on legislation. 
So we appreciate that.
    Let me start with Ms. Ing. Your testimony notes that 
starting in 2008 States which were not a part of an interstate 
compact with a host facility were left stranded without a 
disposal option.
    This was the result of the State of South Carolina choosing 
to exclude non-Atlantic Compact Commission States from having 
access to the Bardwell site. Is that correct?
    Ms. Ing. That is correct.
    Mr. Shimkus. To your knowledge, was that decision the 
result of any technical or legal issues or was it a policy 
change as a result of a political process?
    Ms. Ing. I know that part of the reason was a policy change 
as a result of a political process. To the extent there were 
technical issues as well I would not be aware of those.
    Mr. Shimkus. Due to the nature of low-level waste compacts, 
will host State governments always have the ability to modify 
acceptance criteria depending on political and policy 
preferences?
    Ms. Ing. I believe that would depend on how that compact is 
set up and to what extent the State legislature would impact 
that compact. I know in the State of Texas that would be 
allowed to happen for its host facility in the Texas/Vermont 
compact.
    Mr. Shimkus. The--and again, Mr. Smith, you have already 
mentioned the definition of waste and dealt with the 
transuranic. That was going to be one of my questions but you 
covered that.
    So your testimony also notes that the Department of Energy 
successfully engaged with the State of Nevada to dispose of 
DOE-owned mixed waste at the Nevada National Security Site.
     In your view, what were the key steps that enabled DOE and 
Nevada to come together in an understanding for how to dispose 
of the nuclear material.
    Mr. Smith. Well, I can't speak to Nevada's thought process 
on that. But I believe it is probably coordination with the 
State and the community and trying to move things forward.
    Mr. Shimkus. OK. There is a--is there a common thread 
through the local communities represented by the energy 
community's association?
    Mr. Smith. Well, there is, and I think the common thread is 
is we want to help solve these problems and make a positive 
impact and we think we have got some solutions but you have got 
to bring those to the community and the leadership in those 
communities to be able to get our ideas and impacts that we 
could have on helping you move these processes forward.
    Mr. Shimkus. And some of them might be evaluation of 
legislation that is proposed and being engaged and helping us 
craft that.
    Mr. Smith. Absolutely. We certainly want input into that.
    Mr. Shimkus. Very good. Thank you.
    Ms. Opila, many of the types of radioactive material are 
disused radioactive sources. Disused sources are sealed sources 
of radioactive material that is not currently being utilized 
and will never be utilized again for the intended purposes.
    According to the disused sources working group, there are 
approximately 2 million sealed sources and tens of thousands of 
disused sources in the United States.
    How are agreement States currently managing disused 
sources?
    Ms. Opila. Thank you, Chairman.
    Disused sources are just like any other radioactive source 
that is licensed at a facility under an agreement State's 
authority.
    And therefore those licenses require those facilities to 
safely and securely manage those sources just as they would any 
other sources.
    The agreement States under their authority periodically 
inspect these facilities to ensure that the facilities are 
managing those sources, both disused and used, in a safe and 
secure manner.
    Mr. Shimkus. Is the NRC working with agreement states to 
track and dispose of disused sources?
    Ms. Opila. Yes.
    Mr. Shimkus. If so, are there additional actions the NRC 
could undertake to improve the handling of these sources?
    Ms. Opila. I believe that there are options that are being 
considered, one of which is for category one and category two 
sources, perhaps tracking the status of the source, whether or 
not it is used or disused in the national source tracking 
system.
    Mr. Shimkus. Great. That is the end of my questions and I 
now--I will yield back my time and yield to the ranking member, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Smith, in your testimony you urged DOE and NRC to work 
together to change the way that the United States classifies 
its waste to a risk-based approach, not just for low-level 
waste but for other types of nuclear waste.
    Is there support among other communities for moving in this 
direction?
    Mr. Smith. Yes. Most of all our communities in the Energy 
Communities Alliance are supportive of this effort.
    Mr. Tonko. And Ms. Opila, your reaction to that?
    Ms. Opila. I am sorry, sir.
    Mr. Tonko. Your reaction to the recommendation by Mr. 
Smith. Is there support amongst communities to move to this 
risk-based approach?
    Ms. Opila. The organization doesn't have an opinion on that 
particular question.
    Mr. Tonko. And Ms. Ing, is there any opinion you can share 
with us for--from your perspective?
    Ms. Ing. I can say that we--that with the licensing of the 
facility, the TCEQ, engaged with the facility operator with the 
risk-based approach. But I can only speak to that facility.
    Mr. Tonko. OK. Thank you.
    And Mr. Smith, again, are you seeing support from DOE and 
NRC with regard to reclassification?
    Mr. Smith. Well, we had discussions with DOE but there has 
been no commitment from the Department of Energy. We think that 
the easiest solution would have--would be for Congress to 
change the language to composition as opposed to origin and 
that would give us the ability to look at a number of waste 
streams to be able to move quickly out of our communities and 
have immediate impact.
    Mr. Tonko. Thank you.
    Do you believe that those agencies currently have the legal 
authority you are saying that there would be statutory change 
that you would recommend we do? But do you believe they have 
the authority to make this change or do you see that the 
legislation is absolutely necessary?
    Mr. Smith. Well, I don't think that I am qualified to 
answer that question. But I do think that legislative 
assistance with this would get the process moving very quickly.
    Mr. Tonko. Thank you.
    And Mr. Smith, you also stated in your testimony support 
for looking at all options for nuclear waste disposal. 
Regardless of the status of the Yucca Mountain disposal site, 
it has been very difficult to site even the low-level waste 
facilities but we do have several operating.
    What gives you confidence that a consent-based approach to 
siting facilities for high-level waste can yield a better 
outcome?
    Mr. Smith. Well, something has got to be better than where 
we have been. So I think that anytime we can get together and 
you involve the communities we can give you ideas and 
opportunities that you may not see.
    For instance, we have identified over 2,300 canister or 
high-level waste that with this reclassification could possibly 
be considered transuranic waste and be disposed of in a 
different route than a geologic repository.
    Mr. Tonko. And do communities living near the facilities 
where cleanups are underway believe they are consulted 
adequately about the status and plans for ongoing activities at 
these sites?
    Mr. Smith. I think there is good dialogue although there is 
probably mixed results for your question. There could always be 
more. I do think we need to be engaged more, yes.
    Mr. Tonko. And could DOE and NRC or the facility operators 
be doing more to foster good community relationships?
    Mr. Smith. I guess it depends on who you ask that question. 
They think they are. Sometimes we think there should be, you 
know, more community involvement and assistance with the 
communities, you know, with the level of risk that we are 
having to take on behalf of the Department of Energy.
    Mr. Tonko. Can you cite some specifics from your own 
personal interactions with----
    Mr. Smith. Well, it doesn't involve cleanup but, again, you 
know, the MOX facility is something that came to South Carolina 
with the promise that that was going to be completed and that 
those waste streams had a disposition path out and, again, as 
you see it has certainly taken on the same characteristics of 
Yucca Mountain.
    You know, that gives us pause for, you know, what we are 
being told by the Department of Energy and, you know, the 
administration. So yes, we have serious concerns in all of our 
communities and we all have issues like that.
    Mr. Tonko. Mm-hmm. And are there practices in other 
countries or recommended practices by the International Atomic 
Energy Agency that we should look to for new ideas on how to 
deal with waste safely and more quickly than we are currently 
doing?
    Mr. Smith. Well, I am probably not the one to answer that 
question so I would like to consult with staff and get back 
with you on an answer--a written answer to that question.
    Mr. Tonko. Do any of our other witnesses have 
recommendations in that regard?
    If not, that concludes my questioning, Mr. Chair, and I 
yield back.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the gentleman from Texas, Mr. Flores, 
for 5 minutes.
    Mr. Flores. Thank you. Thank you, Mr. Chairman.
    Ms. Ing, you highlighted in your testimony that compact is 
still learning from the first 3 years of operation.
    Will you tell us the most pressing issues that must be 
addressed by both the commission as well as the State of Texas 
when you look forward?
    Ms. Ing. Yes. What we feel is the most pressing issue is 
ensuring--the State of Texas has made it clear to our compact 
that they will allow 275,000 curies per year into the facility.
    It is important for us to understand how our generators and 
brokers work, who would use the facility and how we can engage 
in a process with them that will allow as much as up to 275,000 
curies into that facility as possible.
    There are a number of challenges to generators such as 
predicting curie values, finding transportation for low-level 
radioactive waste to the facility, et cetera. We do not want 
our process to be in any way more cumbersome to that.
    So ensuring that we understand the needs of the folks who 
would use the facility and being able to adapt our process to 
that is the most pressing issue that we have.
    Mr. Flores. OK. And the second question for you is this. 
The WCS site in Andrews County opened in 2012, and it is the 
only facility that is opened as a result of the low-level waste 
policy act.
    The facility has had some challenges along the way and I 
was wondering if you could tell us about some of those 
challenges that the facility has encountered and also how long 
did it take for the facility to be licensed by the TCEQ?
    Ms. Ing. I don't know exactly how long it took the facility 
to be licensed and I am sorry I don't have that answer. I could 
get it. A lot of people know it.
    It took several years. I do know that. I don't know 
exactly. With regard--I don't want to go too far. The facility 
could give you a better answer of some of their specific 
challenges to getting the facility up and going. I think I can 
speak from my discussions with them that some of the 
difficulties have been similar to ours.
    We are the first compact and they are the first facility to 
take imports and ensuring--knowing all the different processes 
that each State, the unaffiliated States and the compacts, 
have.
    For instance, some compacts--the Southwestern Compact, the 
Central Compact, and the Rocky Mountain Compact require 
exportation.
    We cannot take it until they export it, and every compact 
has a different way to export. And so learning the nuances of 
all the different players is one of the challenges I know we 
have worked with the facility operator, WCS, on.
    Mr. Flores. OK.
    If you don't mind, if you could ask the facility to give us 
the time line for the licensing that would helpful.
    Ms. Ing. I would be very happy to provide you that.
    Mr. Flores. And you can provide that supplementally. Go 
ahead.
    Mr. Shimkus. Are you going to yield back?
    Mr. Flores. I will yield to you.
    Mr. Shimkus. Yes, thank you.
    I just want to--Mr. Smith, in part of these discussions I 
have always tried to figure out what the word local communities 
mean.
    What is your definition of local communities?
    Mr. Smith. Well, I serve on our council. I serve on a CRO.
    Mr. Shimkus. With respect to your association and----
    Mr. Smith. The leadership of the community that helps focus 
the ideas and opportunities that are going to
    Mr. Shimkus. Savannah River is in the county of Aiken, 
South Carolina so that is kind of a good definition. Is the 
country next to Aiken part of the association?
    Mr. Smith. Well, we have a five regional area that consists 
of five different counties that have access or have, you know, 
input into what takes place on the site.
    So we live right on the Savannah River and you cross the 
Savannah River to Georgia they have a third of work force over 
in Georgia and, clearly, they are impacted as well so----
    Mr. Shimkus. So what about the county that is to the east 
of Aiken County?
    Mr. Smith. OK. So that five-county area all has input into 
this process.
    Mr. Shimkus. Are they all bordering Savannah?
    Mr. Smith. They are all bordering Savannah River Site 
except for the Georgia side of the compact.
    Mr. Shimkus. Because of the river?
    Mr. Smith. Because of the river.
    Mr. Shimkus. So they all border the----
    Mr. Smith. That is correct. That is correct.
    Mr. Shimkus. So a county that is one time removed probably 
isn't a local community?
    Mr. Smith. No, it is not a local community.
    Mr. Shimkus. The only point I raise is because especially 
it kind of pertains to even Mr. Tonko's comment on the European 
model.
    There is a definition of--I would argue that especially at 
in Nevada, the local community, especially when you are talking 
about Yucca Mountain, the local community is Federal 
Government.
    BLM land, DOE land, all that, and then some of my friends 
who are 90 miles away--an hour and a half away--aren't really 
part of the local community in this debate. So that is kind of 
why I raised that question.
    Mr. Smith. Well, from Aiken County's standpoint, again, we 
recognize five counties as players or participants in the 
process for Aiken County and Savannah River Site. And so that 
is the input that we want to have on behalf of what takes place 
here.
    Mr. Shimkus. Very good. Thank you.
    I want to thank my colleagues for giving me this time and I 
will now yield to the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I want to ask Ms. Ing, I want to better understand from 
your perspective what is happening with the Texas compact and 
the recent request to NRC to consider allowing Texas to license 
a facility to handle GTCC waste.
    Are you satisfied with the handling of your request by the 
NRC? Well, I will start with that.
    Ms. Ing. For clarification, my compact did not make that 
request. That was made by the Texas commission on environmental 
quality. Since we deal with low-level radioactive waste and 
greater-than-Class C as we currently understand that definition 
does not fall within the purview of our compact.
    We haven't developed and haven't seen a need to develop a 
position on that.
    Mr. Pallone. OK. And I guess there is no one else we could 
ask about if--all right. Thanks a lot.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you. Maybe each of you can respond to this 
question.
    With all of the scientific work that has been done over the 
last 20 years, to appropriately characterize waste, do you have 
any recommendations for how Congress can improve the disposal 
of low-level radioactive waste?
    We will start with you, Ms. Opila.
    Ms. Opila. No, the organization does not have any 
recommendations for how Congress can improve. We believe the 
compact system is working well. We believe the compact system 
is working well.
    We believe that the States that regulate the facilities do 
a good job of regulating these facilities and so we do not have 
any recommendations at this time.
    Mr. Pitts. Ms. Ing.
    Ms. Ing. We do not have any recommendations to improve it 
either. Our facility has been up and operating just since April 
of 2012. We are still learning. We still have access and can 
maintain capacity for all the 50 States and DC and territories.
    Mr. Pitts. Mr. Smith.
    Mr. Smith. Again, you know, I am not an expert on this but 
if we were to change the language in the Nuclear Waste Policy 
Act to reflect composition of the waste we think that are other 
alternatives for some of the waste that we currently have at 
Savannah River Site. So we do see alternatives for that.
    Mr. Pitts. Ms. Opila, you--in 2008 the State of South 
Carolina restricted access to the Barnwell disposal facility to 
members of the Atlantic Compact Commission, essentially leaving 
the majority of the country without a Site to dispose of Class 
B and C waste, and I understand that Colorado is part of the 
Rocky Mountain Compact, which has an agreement to send low-
level waste to Richland, Washington.
    But will you describe how other States managed Class B and 
C waste prior to the opening of the Site in Andrews County, 
Texas?
    Ms. Opila. Yes, sir.
    Most of the facilities that generated low-level waste in 
States that did not have access to a facility during that time 
period between when the Atlantic Compact closed to out-of-
compact waste and when the WCS facility was open to out of 
compact waste, those facilities were required to basically 
store their waste on Site until they could have access to a 
disposal facility.
    Mr. Pitts. And your testimony notes that the organization 
for agreement States objects to NRC requiring a Site to redo 
its performance assessment unless the site plans to accept new 
material.
    Will you please describe this issue in greater detail?
    Ms. Opila. Sure.
    Essentially, the way we understand the proposed 
requirements of Part 61 that they would require all facilities, 
current facilities to redo their performance assessments and 
for facilities that are not going to be taking these unique 
waste streams there is no need for that and the cost that would 
be incurred by the facility to do this very detailed 
performance assessment as well as the cost incurred to the 
agreement State to evaluate the performance assessment could be 
significant.
    And those costs would not--or redoing these performance 
assessments would not enhance the safety of, you know, disposal 
waste at those facilities if they are not going to be taking 
these unique waste streams.
    Mr. Pitts. What might be some potential implications if 
NRC's requirement forces existing sites to adjust their 
performance standards?
    Ms. Opila. Again, our concern is that the costs that would 
be incurred by the facilities and the States to redo those 
performance assessments and evaluate them could be significant 
and we don't, again, feel that that would be necessary and 
would not enhance any safety of disposal waste at those 
facilities.
    Mr. Pitts. All right.
    Ms. Ing, the Federal Government still must address how to 
dispose of depleted uranium as a result of enrichment. 
Currently, there is a significant amount of depleted uranium 
located at the Urenco facility just across the Texas-New Mexico 
border.
    Has the Texas compact considered whether and how it would 
treat an authorization request to dispose of depleted uranium 
at the Andrews County facility?
    Ms. Ing. The compact would defer to the host State, Texas, 
on that matter. Currently, we will allot 275,000 curies per 
year as per Texas law into that facility. We do not distinguish 
if the curies come from depleted uranium or another source 
material.
    And all of the authorizations are looked at and reviewed by 
the Texas Commission on Environmental Quality.To the extent 
through that review or statute they change that position, we 
would defer to that as a compact.
    Mr. Pitts. My time has expired.
    Mr. Shimkus. Gentleman's time has expired.
    We want to thank the second panel for testifying and just 
remind the first and second panel we are glad to see the NRC 
stayed. We appreciate that.
    We will note that the DOE did leave, though. So having said 
that, the hearing record will be open for 10 legislative days 
for us maybe to receive questions and then get them to you. If 
you would respond when you can, I would appreciate that.
    And the hearing stands adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned ]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
